No.
INTHE

~upreme <!Court of tbe Wniteb ~tates
DONTAE SMALL,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 5th day of March, 2020, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

Brandon L. B /

